No. 20IN TnE

thipmne Court of the littitee *lido
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,
Petitioner,
Z.
SHAWNE ALSTON, et at.,.
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), 1, Seth P. Waxman, a member of the
bar of this Court, certify that the accompanying Petition for a Writ of Certiorari
contains 8,275 words, excluding the parts of the document that are exempted. by
Supreme Court Rule 33.1(d).
Executed on October 15, 2020.

t
SETH P. WAXMAN
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Avenue NW
Washington, DC 20006
(202) 663-6000
seth.waxman@vrilmerhale.com

